APPENDIX

APPENDIX A:
SUMMARY ORDER OF THE UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED SEPTEMBER 30, 2020
(United States v. Little, 828 Fed.Appx. 34 (2d Cir. 2020))

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page1 of 9

18-3622 (L)
United States v. Little

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT=S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION ASUMMARY ORDER@). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of
New York, on the 30th day of September, two thousand twenty.
PRESENT:
DENNIS JACOBS,
GERARD E. LYNCH,
MICHAEL H. PARK,
Circuit Judges.
_____________________________________
United States of America,
Appellee,
v.

No. 18-3622-cr
No. 19-445-cr

Michael J. Little, AKA Sealed Defendant 1,
Defendant-Appellant.
_____________________________________
FOR DEFENDANT-APPELLANT:

ROBERT A. CULP, Law Office of Robert A.
Culp, Garrison, NY for Michael J. Little

FOR APPELLEE:

DINA MCLEOD, Assistant United States
Attorney (Christopher J. DiMase, Andrew S.
Dember, Anna M. Skotko, Assistant United
States Attorneys, on the brief), for Audrey
Strauss, Acting United States Attorney for
the Southern District of New York, New
York, NY.

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page2 of 9

1
2

Appeal from a judgment of the United States District Court for the Southern District of
New York (Castel, J.).

3

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND

4

DECREED that the judgment of the district court is AFFIRMED, except that the order of

5

restitution is AFFIRMED IN PART, VACATED IN PART, and REMANDED for further

6

proceedings.

7

Michael J. Little appeals from the judgment of conviction on nineteen counts arising from

8

a scheme to conceal assets from the Internal Revenue Service. After the death of Harry Seggerman

9

in 2001, Little and a foreign associate gathered millions of dollars held in Seggerman’s undisclosed

10

offshore accounts and placed them in a Swiss trust called Lixam Proviso. Little then helped

11

transfer the Lixam assets under the guise of gifts or loans to Seggerman’s surviving spouse and

12

children. He was paid about half-a-million dollars for his role.

13

In connection with that scheme, Little was charged and found guilty on one count of

14

corruptly impeding the administration of the IRS, 26 U.S.C. § 7212(a); one count of conspiracy to

15

defraud the United States, 18 U.S.C. § 371; and ten counts of willfully assisting in the filing of

16

false Forms 3520 (Annual Return to Report Transactions with Foreign Trusts and Receipt of

17

Certain Foreign Gifts), 26 U.S.C. § 7206(2). Little was also convicted on additional counts

18

relating to his failure to file his own tax returns or Report of Foreign Bank and Financial Accounts

19

(“FBAR”). He was sentenced to twenty months’ imprisonment and a one-year term of supervised

20

release. He was further ordered to pay $4,352,889.71 to the United States in restitution, an order

21

from which he also now appeals. We assume the parties’ familiarity with the underlying facts,

22

procedural history, and issues on appeal.

23

2

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page3 of 9

1

1. Constructive Amendment of the Indictment

2

Little first argues that discrepancies between the indictment and the jury instructions on the

3

conspiracy count rise to the level of a constructive amendment of the indictment and thereby

4

violate the Fifth Amendment’s Grand Jury Clause. Although the indictment described the third

5

object of the conspiracy as assisting the preparation of fraudulent Forms 1040 (income tax returns)

6

or Forms 706 (estate tax return), the jury instructions stated that “the third object is going to be

7

charged separately in Counts Ten through Nineteen,” the counts for assisting the preparation of

8

fraudulent Forms 3520. The district court further directed the jurors that they “should apply the

9

instructions for Counts Ten through Nineteen when considering whether the government proved

10

this third object of the conspiracy.”

11

Because Little raises his claim of constructive amendment for the first time on appeal, we

12

review it for plain error. See United States v. Bastian, 770 F.3d 212, 219 (2d Cir. 2014). “To

13

prevail on a constructive amendment claim, a defendant must demonstrate that ‘the terms of the

14

indictment are in effect altered by the presentation of evidence and jury instructions which so

15

modify essential elements of the offense charged that there is a substantial likelihood that the

16

defendant may have been convicted of an offense other than that charged in the indictment.’”

17

United States v. D’Amelio, 683 F.3d 412, 416 (2d Cir. 2012) (citation omitted). It is neither clear

18

nor obvious that there was a discrepancy between the indictment and the jury instructions. The

19

jury instructions described the third object of the conspiracy as “aiding and assisting in the

20

preparation and filing of false tax returns,” i.e., a violation of 26 U.S.C. § 7206(2). The same

21

statutory provision that criminalizes aid in filing a false 1040 also criminalizes aid in filing a false

22

3520. The references to Counts Ten through Nineteen thus could be understood to incorporate

23

that instruction’s description of the elements of a § 7206(2) violation rather than the conduct

3

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page4 of 9

1

described in that instruction. We therefore conclude that the district court did not commit plain

2

error in its jury instructions regarding the third object of the conspiracy.

3

Little also presses a claim of constructive amendment of the indictment with respect to

4

Count Eight, which charges willful failure to file an FBAR disclosing his interest in a foreign

5

financial account, “to wit, at least one foreign bank, securities, and other financial account at

6

Barclay’s Bank, located in Guernsey, Channel Islands.” Little contends that the government

7

constructively amended the indictment by offering proof of a second foreign account in the United

8

Kingdom, an account mentioned in the jury instructions. Such a discrepancy, however, does not

9

rise to the level of constructive amendment because “to wit” clauses do not modify essential

10

elements of the offense. See D’Amelio, 683 F.3d at 422.

11

2. Sufficiency of the Evidence of Willfulness

12

Several of the tax counts on which Little was convicted require that the government prove

13

a willful state of mind. Little contends that there was insufficient evidence that he willfully failed

14

to file tax returns, failed to file an FBAR, or assisted in the filing of fraudulent Forms 3520. “The

15

test for sufficiency is whether, as to a given count, a ‘rational trier of fact could have found the

16

defendant guilty beyond a reasonable doubt.’” United States v. Persico, 645 F.3d 85, 104 (2d Cir.

17

2011) (citation omitted). “In challenging the sufficiency of the evidence, the defendant faces an

18

uphill battle, and bears a very heavy burden, because the evidence must be viewed in the light most

19

favorable to the Government, with all reasonable inferences drawn in favor of the verdict.” United

20

States v. Crowley, 318 F.3d 401, 407 (2d Cir. 2003) (citations and internal quotation marks

21

omitted).

22

Because “willfulness under the tax laws requires ‘a voluntary, intentional violation of a

23

known legal duty,’” we must first verify that there was a legal duty before we consider whether

4

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page5 of 9

1

sufficient evidence supports a willful violation. United States v. Bok, 156 F.3d 157, 165 (2d Cir.

2

1998) (quoting Cheek v. United States, 498 U.S. 192, 200–01 (1991)). First, Little was under a

3

duty to file an annual income tax return during the charged years of 2005 to 2010. This is because

4

he was a lawful permanent resident who had not had his resident status “revoked,”

5

“administratively or judicially determined to have been abandoned” or, after 2008, otherwise

6

demonstrated to the Secretary that he should be “treated as a resident of a foreign country under

7

the provisions of a tax treaty.” 26 U.S.C. § 7701(b)(6); see also 26 U.S.C. § 7701(b)(1)(A)(i); 26

8

C.F.R. §§ 1.6012-1, 301.7701(b)-1(b). Second, Little was a “resident alien” or “person subject to

9

the jurisdiction of the United States” with an obligation to file an FBAR. 31 C.F.R. § 1010.350(a),

10

(b)(2); 31 C.F.R. § 103.24 (2007). Finally, Little had a duty not to assist in the filing of a fraudulent

11

Form 3520; but whether the forms at issue were in fact fraudulent is a question for the jury. See

12

United States v. Perez, 565 F.2d 1227, 1233–34 (2d Cir. 1977).

13

We conclude that substantial evidence supports the jury verdict on each of the challenged

14

counts. In a nutshell, Little contends that he merely misunderstood the byzantine tax code. But

15

Little is a British-trained barrister admitted to the New York Bar with a quarter-century of

16

experience in complex international financial transactions who, for much of his life, has claimed

17

German domicile for tax purposes. A reasonable juror could easily conclude that the failures of

18

such a sophisticated professional to report his income to the IRS, including compensation from the

19

Seggerman family, and to report foreign bank accounts into which his compensation was funneled,

20

were willful acts. See United States v. MacKenzie, 777 F.2d 811, 818 (2d Cir. 1985) (permitting

21

the inference of “knowledge of the law” from the “[d]efendants’ backgrounds,” including

22

education).

23

misleading the Seggerman family’s accountants when he informed them that the transfers from

Similarly, Little’s sophistication supports a conclusion that he was willfully

5

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page6 of 9

1
2
3

Lixam Proviso were merely “gifts from a kind benefactor from overseas” and not distributions.
For these reasons, we conclude that the evidence of willfulness was sufficient to support
the verdict.

4

3. Jury Instructions

5

Little did not object to the jury instructions, so we review them for plain error. See United

6

States v. Vilar, 729 F.3d 62, 70 (2d Cir. 2013).

7

First, Little challenges the “conscious avoidance” instructions on the failure to file return

8

counts, the failure to file FBAR count, and the conspiracy count; and second, that the district

9

court’s instructions as to willfulness erroneously converted the standard into a reasonableness

10

standard. Conscious avoidance instructions are permissible only when the defendant mounts a

11

defense that he lacked “some specific aspect of knowledge required for conviction” and “a rational

12

juror may reach the conclusion beyond a reasonable doubt that the defendant was aware of a high

13

probability of the fact in dispute and consciously avoided confirming that fact.” United States v.

14

Coplan, 703 F.3d 46, 89 (2d Cir. 2012) (citation and internal quotation marks omitted). Here, each

15

predicate is met: Little defended himself by claiming ignorance of his obligations under the Tax

16

Code and, because of Little’s legal education and the relative straightforwardness of his

17

obligations, a reasonable juror could conclude that Little was aware of a high probability that his

18

actions were unlawful.

19

Second, Little challenges the willfulness instruction. He contends that the permission the

20

district court gave the jury to “consider whether the defendant’s belief was actually reasonable as

21

a factor in deciding whether he held the belief in good faith” converted the jury charge into a

22

reasonableness instruction. But Little misreads the instruction by ignoring the context. The

23

preceding sentence unambiguously rejects a reasonableness standard, warning the jury that “if you

6

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page7 of 9

1

find that the defendant honestly believed that he was not required to file a return, even if that belief

2

was unreasonable or irrational, then you should find him not guilty.” In context, the instruction

3

does not run contrary to the statutory mens rea. Rather, the instruction strictly limits considerations

4

of the defendant’s reasonableness (or lack thereof) to whether it raises the inference of willfulness,

5

a “factor” expressly approved by the Supreme Court. See Cheek, 498 U.S. at 203–04 (“[T]he more

6

unreasonable the asserted beliefs or misunderstandings are, the more likely the jury will . . . find

7

that the [g]overnment has carried its burden of proving knowledge.”)

8

For these reasons, we conclude that the jury instructions were proper.

9

4. Joinder

10

Little next argues that the counts of failure to file were improperly joined in the indictment.

11

“Tax counts can properly be joined with non-tax counts where it is shown that the tax offenses

12

arose directly from the other offenses charged. The most direct link possible between non-tax

13

crimes and tax fraud is that funds derived from non-tax violations either are or produce the

14

unreported income.” United States v. Turoff, 853 F.2d 1037, 1043 (2d Cir. 1988) (cleaned up).

15

Little’s contention is that the failure-to-file counts had nothing directly to do with the broader

16

Seggerman conspiracy.

17

But the indictment and record belie that contention. Little was charged with failure to file

18

tax returns for the years in which he received payments from the Seggermans for his role in the

19

scheme. Moreover, Little received such income, in part, through the bank account for which he

20

failed to file an FBAR. We therefore conclude that the charges were properly joined and the

21

district court appropriately exercised its discretion when it denied Little’s motion to sever.

22

5. Restitution Order

23

Finally, the district court did err in its restitution order. For convictions of offenses defined

7

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page8 of 9

1

in Title 26 of the United States Code, courts lack the statutory authority to order restitution that

2

begins immediately upon judgment. See United States v. Adams, 955 F.3d 238, 250 (2d Cir. 2020)

3

(citing 18 U.S.C. §§ 3663(a), 3663A). Hence, the $134,449.71 ordered as restitution for Little’s

4

failure to file tax returns in violation of 26 U.S.C. § 7203 is ultra vires. While we have sometimes,

5

in similar cases, exercised our power to modify a judgment to impose restitution as a condition of

6

supervised release, see Adams, 955 F.3d at 250–51, we decline to do so here. The district court

7

calculated Little’s restitution obligation by applying the 20% rate provided for in Section

8

2T1.1(c)(2)(a) of the Sentencing Guidelines to Little’s earnings between 2005 and 2010. Since

9

then, however, the governments of the United States and the United Kingdom have apparently

10

agreed that the United States may tax Little’s business income only up to September 2008.

11

Accordingly, we conclude that the proper course under these circumstances is to vacate that part

12

of the restitution order relating to Little’s failure to file tax returns and remand this case for the

13

district court to assess in the first instance what effect, if any, this agreement might have on the

14

amount of restitution owed to the United States. The balance of the restitution order—the

15

$4,218,140.00 for which Little is one of the jointly and severally liable coconspirators—is

16

affirmed. 1

17

We have considered the remainder of Little’s arguments and find them to be without merit.

18

For the foregoing reasons, we AFFIRM the judgment of conviction, except for the order of

19
20

1

We reject Little’s argument that this restitution obligation must be apportioned among the
coconspirators. The decision whether to apportion or hold the coconspirators jointly and severally liable
is committed to the discretion of the trial court. See United States v. Nucci, 364 F.3d 419, 422 (2d Cir.
2004) (citing 18 U.S.C. § 3664(h)).

8

Case 18-3622, Document 162-1, 09/30/2020, 2941350, Page9 of 9

1

restitution, which we AFFIRM IN PART and VACATE IN PART and REMAND for further

2

proceedings.

3
4

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

9

APPENDIX B:
MEMORANDUM AND ORDER OF THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK DENYING DEFENDANT’S
MOTION TO DISMISS, DATED MAY 3, 2017
(United States v. Little, 2017 WL 1743837 (S.D.N.Y. 2017))

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 1 of 14

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
-----------------------------------------------------------x
UNITED STATES OF AMERICA,
12-cr-647 (PKC)
-against-

MEMORANDUM
AND ORDER

MICHAEL LITTLE,
Defendant.
-----------------------------------------------------------x
CASTEL, U.S.D.J.
Defendant Michael Little moves for partial dismissal of the Second Superseding
Indictment on the grounds that his prosecution for failure to file individual income tax returns
and Reports of Foreign Bank and Financial Accounts (“FBARs”) would deprive him of due
process of law in violation of the Fifth Amendment to the United States Constitution. Little
asserts that at the time of the events charged in the indictment he was a U.K. citizen and a lawful
permanent resident of the U.S. He argues that the statutes and regulations requiring U.K.
citizens with permanent residence status under U.S. immigration law to file U.S. income tax
returns and FBARs, when read in conjunction with the U.S./U.K. Tax Treaty (the “Treaty”), are
ambiguous, such that a person of ordinary intelligence lacks notice as to what constitutes
compliance with the law. The Court finds that none of the relevant statutes or regulations,
whether read in isolation or together, or in conjunction with the Treaty, are so ambiguous that
they could properly be found unconstitutionally vague as applied to the charged conduct.
Defendant’s motion for partial dismissal of the indictment is thus denied.
BACKGROUND
A grand jury returned a nineteen count Second Superseding Indictment against
defendant Little, filed on March 18, 2013, charging him with willful failure to file individual

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 2 of 14

income tax returns and FBARs, as well various crimes arising out of his alleged assistance of
Harry G. A. Seggerman’s heirs in a scheme to avoid the taxes due on their inheritance held in
undeclared offshore accounts. (Dkt. No. 48.) Little first raised his due process arguments in a
letter to the Court dated February 9, 2017. (Dkt. No. 230.) The Court directed the government
to respond. (Dkt. No. 231.) The government responded on March 2, 2016, (Dkt. No. 234), Little
replied on March 21, 2017, (Dkt. No. 239), and supplemented this submission on April 10, 2017,
(Dkt. No. 244.)
DISCUSSION
Defendant Little moves to dismiss Counts One through Eight of the Second
Superseding Indictment on the grounds that the statutes and regulations requiring him to file
individual income tax returns and FBARs, as well as those attaching criminal liability to such
failure, are unconstitutionally vague in violation of the Due Process Clause of the Fifth
Amendment.
I.

Void for Vagueness Standard.
“As generally stated, the void-for-vagueness doctrine requires that a penal statute

define the criminal offense with sufficient definiteness that ordinary people can understand what
conduct is prohibited and in a manner that does not encourage arbitrary and discriminatory
enforcement.” United States v. Rybicki, 354 F.3d 124, 129 (2d Cir. 2003) (quoting Kolender v.
Lawson, 461 U.S. 352, 357 (1983)). Because the First Amendment is not implicated, the Court
assesses Little’s challenge as applied, i.e., “in light of the specific facts of the case at hand and
not with regard to the statute’s facial validity.” Id. (quoting United States v. Nadi, 996 F.2d 548,
550 (2d Cir. 1993)). Courts examine as-applied vagueness claims in two steps: “a court must
first determine whether the statute gives the person of ordinary intelligence a reasonable

-2-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 3 of 14

opportunity to know what is prohibited and then consider whether the law provides explicit
standards for those who apply it.” Rubin v. Garvin, 544 F.3d 461, 468 (2d Cir. 2008) (quoting
Farrell v. Burke, 449 F.3d 470, 486 (2d Cir. 2006)). The “novelty” of a prosecution does not
bolster a vagueness challenge, for the lack of a prior “litigated fact pattern” that is “precisely” on
point is “immaterial.” United States v. Kinzler, 55 F.3d 70, 74 (2d Cir. 1995).
“A scienter requirement may mitigate a law’s vagueness, especially where the
defendant alleges inadequate notice.” Rubin, 544 F.3d at 467 (citing Vill. of Hoffman Estates v.
Flipside, Hoffman Estates, Inc., 455 U.S. 489, 499 (1982)). Where “the punishment imposed is
only for an act knowingly done with the purpose of doing that which the statute prohibits, the
accused cannot be said to suffer from lack of warning or knowledge that the act which he does is
a violation of law.” United States v. Tannenbaum, 934 F.2d 8, 12 (2d Cir. 1991) (quoting
Screws v. United States, 325 U.S. 91, 102 (1945) (plurality opinion)) (Bank Secrecy Act
provision requiring reporting by financial institutions not void for vagueness when applied to an
individual because the Act defined financial institutions to include “[a] person who engages as a
business in dealing in or exchanging currency” and defendant knew he was “committing a
wrongful act.”)
The Court must conduct separate inquiries into the underlying statutes and
regulations and then into the statutes imposing criminal penalties for certain types of violations
of these statutes and regulations. First, the Court finds that the U.S. statutes and regulations that
require alien lawful permanent residents (green card holders) to either (a) file a tax return and
pay taxes on worldwide income, or (b) file a tax return reporting worldwide income and indicate
that he or she is taking a particular protection under the Treaty, are not unconstitutionally vague
as applied. Second, the Court finds that the statutes providing for criminal sanctions against

-3-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 4 of 14

individuals who violate these obligations are not vague as applied to alien lawful permanent
residents.
II.

U.S. Tax and Reporting Obligations for Alien Lawful Permanent Residents.
An alien individual who is a lawful permanent resident of the United States is

treated as a resident of the United States for tax payment and reporting purposes. 26 U.S.C. §
7701(b)(1)(A). This treatment applies regardless of whether the individual is physically present
in the U.S. or not. An individual is a lawful permanent resident of the U.S. if the individual has
been lawfully accorded the privilege of residing permanently in the U.S. as an immigrant in
accordance with the immigration laws, as long as this status has not been revoked or
administratively or judicially determined to have been abandoned. 26 U.S.C. § 7701(b)(6). In
2008 Congress amended 26 U.S.C. § 7701(b)(6) to add the following language:
An individual shall cease to be treated as a lawful permanent
resident of the United States if such individual commences to be
treated as a resident of a foreign country under the provisions of a
tax treaty between the United States and the foreign country, does
not waive the benefits of such treaty applicable to residents of the
foreign country, and notifies the Secretary of the commencement
of such treatment.
26 U.S.C. § 7701(b)(6)(B).
Under 26 U.S.C. § 6012 and 26 C.F.R. § 1.6012-1, a U.S. resident is required to
file an income tax return each year on a Form 1040.
An individual who is a U.S. resident as well as a resident of a foreign country is a
dual resident. If the U.S. is party to a tax treaty with the foreign country of which the dual
resident is also a resident, then that treaty will determine the residency status of that resident.
The U.S. is party to a tax treaty with the U.K.: the Convention between the
Government of the United States of America and the Government of the United Kingdom of

-4-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 5 of 14

Great Britain and Northern Ireland for the Avoidance of Double Taxation and the Prevention of
Fiscal Evasion with Respect to Taxes on Income and on Capital Gains, effective July 24, 2001.
The residence provisions of the Treaty, or “tie breaker rules,” dictate that, for the purposes of the
taxation of worldwide income, when an individual is a dual resident of the U.S. and U.K.:
a) he shall be deemed to be a resident only of the State in which
he has a permanent home available to him; if he has a
permanent home available to him in both States, he shall be
deemed to be a resident only of the State with which his
personal and economic relations are closer (centre of vital
interests);
b) if the State in which he has his centre of vital interests cannot
be determined, or if he does not have a permanent home
available to him in either State, he shall be deemed to be a
resident only of the State in which he has an habitual abode;
c) if he has an habitual abode in both States or in neither of them,
he shall be deemed to be a resident only of the State of which
he is a national;
d) if he is a national of both States or of neither of them, the
competent authorities of the Contracting States shall endeavour
to settle the question by mutual agreement.
Treaty, art. IV, § 4. Explicitly excluded from this treatment are taxes due to either State by “any
person who is liable to tax in that State in respect only of income from sources in that State or of
profits attributable to a permanent establishment in that State.” Id. at art. IV, § 1.
A dual resident of the U.S. and the U.K. may claim benefits under the Treaty and
be treated as a nonresident alien for the purposes of computing his U.S. federal income tax
liability. To receive such treatment, the individual must file a Form 1040NR:
An alien individual . . . who determines his or her U.S. tax liability
as if he or she were a nonresident alien shall make a return on
Form 1040NR on or before the date prescribed by law (including
extensions) for making an income tax return as a nonresident. The
individual shall prepare a return and compute his or her tax
liability as a nonresident alien. The individual shall attach a
statement (in the form required in paragraph (c) of this section) to
the Form 1040NR. The Form 1040NR and the attached statement,

-5-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 6 of 14

shall be filed with the Internal Revenue Service Center,
Philadelphia, PA 19255.
26 C.F.R. § 301.7701(b)-7(b). The individual must also file as an attachment to his or her Form
1040NR a completed Form 8833 (Treaty-Based Return Position Disclosure). 26 C.F.R. §
301.7701(b)-7(c).
The filing of this Treaty-Based Return Position Disclosure is also mandated as
part of a separate and independent reporting obligation pursuant to 26 U.S.C. § 6114:
(a) Each taxpayer who, with respect to any tax imposed by this
title, takes the position that a treaty of the United States
overrules (or otherwise modifies) an internal revenue law of
the United States shall disclose (in such manner as the
Secretary may prescribe) such position—
(1) on the return of tax for such tax (or any statement
attached to such return), or
(2) if no return of tax is required to be filed, in such form as
the Secretary may prescribe.
Thus, the filing of Form 8833 satisfies the reporting requirements of both 26 C.F.R. §
301.7701(b)-7(b) and 26 U.S.C. § 6114 with respect to disclosing that the filing individual is
taking a Treaty position. See 26 C.F.R. § 301.7701(b)-7(d).
For further clarification regarding filing requirements, 26 C.F.R. § 301.7701(b)7(e) sets forth examples to illustrate the application of these rules and the tax and reporting
obligations of individuals who do or do not take a Treaty position.
III.

The Tax and Reporting Obligations Applicable to Alien Permanent Residents are not
Void as Applied.
A. Failure to File Tax Returns.
Little argues that the 2008 amendment to 26 U.S.C. § 7701(b)(6), when read in

conjunction with the Treaty, created an ambiguity regarding a permanent resident’s tax and
reporting obligations. (Def.’s Reply in Supp. of Mot. to Dismiss, March 21, 2017, Dkt. No. 239

-6-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 7 of 14

(“D.’s Reply”) at 2.) He argues that this amendment brought the law into compliance with the
Treaty, which states:
An individual who is a United States citizen or an alien admitted to
the United States for permanent residence (a ‘green card’ holder) is
a resident of the United States only if the individual has a
substantial presence, permanent home or habitual abode in the
United States and if that individual is not a resident of a State other
than the United Kingdom for the purposes of a double taxation
convention between that State and the United Kingdom.
Treaty, art. 4 § 2. Little argues that because he was only temporarily in the U.S. between 20052008, this language from the Treaty would lead a person of ordinary intelligence to believe that
he was not a resident of the U.S. for tax purposes. (D.’s Reply at 2.) Little also argues that the
Court should not interpret any subsequently passed legislation or regulation as having modified
the Treaty, citing TWA v. Franklin Mint Corp., 466 U.S. 243, 252 (1984) (“A treaty will not be
deemed to have been abrogated or modified by a later statute unless such purpose on the part of
Congress has been clearly expressed.”). (D.’s Reply at 3.)
Little cites several more provisions of the Treaty that he claims are inconsistent
with the above described tax and reporting obligations imposed by U.S. statutes and regulations,
arguing that an alien lawful permanent resident of ordinary intelligence would be unclear as to
what was needed to comply with the law. He cites, among other portions of the Treaty, Article
25, which states:
Nationals of a Contracting State shall not be subjected in the other
Contracting State to any taxation or any requirement connected
therewith that is more burdensome than the taxation and connected
requirements to which nationals of that other State in the same
circumstances, particularly with respect to taxation on worldwide
income, are or may be subjected.
Treaty, art. 25, § 1.

-7-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 8 of 14

Little appears to interpret this language to mean that a U.K. national cannot be
subject to any requirement in the U.S. that is more burdensome than that which that person
would be subject to in the U.K. (D.’s Reply at 4.) Little’s interpretation is erroneous. A plain
reading of the forgoing language is that a U.K. national cannot be subject to requirements in the
U.S. that are more burdensome than those that U.S. nationals are subject to within the U.S.
Thus, Little’s contention that failure to file tax returns in the U.K. is not a criminal offence is
irrelevant.
Little goes on to argue that even under U.S. law the penalty for failing to disclose
a Treaty position is a financial penalty, not the denial of Treaty benefits, citing 26 U.S.C. § 6712
(imposing a $1,000 penalty for failure to comply with 26 U.S.C. § 6114). (Id. at 3.) He further
argues that failure to disclose that one is taking a Treaty position does not prohibit one from
doing so, citing Pekar v. Commissioner, 113 T.C. 158, 161 n.5 (1999) (“A taxpayer who fails in
a material way to disclose one or more positions taken for a taxable year is subject to a separate
penalty for each failure to disclose a position. However, there is no indication that this failure
estops a taxpayer from taking such a position.”) (internal citations omitted).
Little also cites language in Articles 3, 5, 7, and 26 of the Treaty, which he argues
exempt the income he made working in the U.S. from taxation by the U.S. (D.’s Reply at 4.)
Little’s arguments lack merit. Based on the above cited statutes and regulations,
an alien lawful permanent resident of ordinary intelligence would know that he or she needed to
either (a) file a tax return and pay taxes on worldwide income, or (b) file a tax return reporting
worldwide income and indicate that he or she is taking a particular protection under the Treaty.
An individual’s obligation to pay taxes on either his income earned while in the U.S., or his

-8-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 9 of 14

worldwide income, is irrelevant to his or her obligation to disclose such income and report it
pursuant to the above discussed statutes and regulations.
The U.S. statutes and regulations giving rise to these obligations are thus not void
as applied to the conduct with which Little is charged in the Second Superseding Indictment.
Dicta in a decades-old Tax Court case does not render the obligations imposed on Little by these
statutes and regulations unconstitutionally vague.
Little’s argument that the failure to take a Treaty position can result only in a
financial penalty also lacks merit. 26 U.S.C. § 6712(c) expressly states that “[t]he penalty
imposed by this section shall be in addition to any other penalty imposed by law.”
Little also contends that he was informed by Her Majesty’s Revenue and Customs
that he was a U.K. tax resident pursuant to the Treaty and thus not required to file U.S. tax
returns. (Def.’s February 9, 2017 Letter, Dkt. No. 230 at 2.)
Advice of counsel is an affirmative defense that must be based in fact and raised
at trial by the defendant, who must prove that he “(1) ‘honestly and in good faith’ sought the
advice of counsel; (2) ‘fully and honestly la[id] all the facts before his counsel’; and (3) ‘in good
faith and honestly follow[ed]’ counsel’s advice, believing it to be correct and intending that his
acts be lawful. United States v. Colasuonno, 697 F.3d 164, 181 (2d Cir. 2012) (quoting
Williamson v. United States, 207 U.S. 425, 453 (1908)) (alternations in original). It remains to
be determined whether information from a U.K. tax official can qualify as advice of counsel.
Under the present circumstances, no advice that Little may have received from
U.K. tax authorities affects the void for vagueness analysis of his duty to file U.S. tax returns.

-9-

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 10 of 14

B. Failure to File FBARs.
Both Little and the Government agree that the Treaty does not affect any
individual’s obligation to file FBARs and that the 2007 and 2008 FBAR forms provided that
FBARs were to be filed by “citizen[s] or resident[s] of the United States, or a person in and
doing business in the United States.” (Gov.’s Opp. to Mot. to Dismiss, March 2, 2017, Dkt. No.
234 (“Gov.’s Opp.”) at 11; D.’s Reply at 4.) However, Little contends that IRS announcements
2009-51 and 2010-51 suspended the requirement for a person “in and doing business in the
United States” to file and FBAR. (D.’s Reply at 4.) Internal Revenue Bulletin: 2009-51,
“Temporary Suspension of FBAR filing Requirements for Persons who are not Citizens,
Residents, or Domestic Entities,” June 22, 2009, stated:
[A]ll persons may rely on the definition of ‘United States person’
found in the instructions for the prior version of the FBAR (the
July 2000 version) to determine whether they have an obligation to
file an FBAR. The definition of ‘United States person’ from the
prior version is as follows: . . . The term ‘United States person’
means (1) a citizen or resident of the United States, (2) a domestic
partnership, (3) a domestic corporation, or (4) a domestic estate or
trust.
Prior to February 24, 2011, the FBAR regulations did not define the term “U.S.
resident.” Internal Revenue Manual 4.26.16.3.1.2(1). “For FBARs required to be filed June 30,
2011 or later, 31 C.F.R. § 1010.350(b) defines ‘United States resident’ using the definition of
resident alien in IRC 7701(b),” which includes green card holders such as Little. Internal
Revenue Manual 4.26.16.3.1.2(2)(1).
For FBARs due before the June 22, 2009 announcement, there does not appear to
be any ambiguity regarding the duty to file for persons ‘in and doing business in the United
States.’ Even before the term ‘United States resident’ was defined by FBAR regulations, it
appears likely that an alien lawful permanent resident of ordinary intelligence not ‘in or doing
- 10 -

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 11 of 14

business in’ the U.S. would have understood themselves to be under an obligation to file an
FBAR based on the definition of ‘United States resident’ in other parts of the U.S. code and
regulations. To the extent that there was any ambiguity regarding this duty, that ambiguity is
remedied for the purposes of this void for vagueness analysis by the fact that criminal penalties
only apply to a failure to file an FBAR if such failure to file was willful, as will be discussed
below.
IV.

The Relevant Criminal Statutes as Applied are not Void for Vagueness.
Little argues that Counts One through Eight of the Second Superseding

Indictment must be dismissed pursuant to the void for vagueness doctrine of the Due Process
Clause of the Fifth Amendment. Count One of the Second Superseding Indictment charges
Little with Obstructing and Impeding the Due Administration of Internal Revenue Laws in
violation of 26 U.S.C. § 7212(a); Counts Two through Seven charge Little with Failure to File
Individual Income Tax Returns for Tax Years 2005-2010 in violation of 26 U.S.C. § 7203; Count
Eight charges Little with Willful Failure to File Reports of Foreign Bank and Financial Accounts
in violation of 31 U.S.C. § 5322(a). Because a person of ordinary intelligence would understand
that these statutes impose criminal penalties on persons engaging in the conduct in which Little
is alleged to have engaged, these statutes are not void for vagueness as applied to Little.
26 U.S.C. § 7212(a) makes it unlawful to “corruptly . . . obstruct[] or impede[], or
endeavor[] to obstruct or impede, the due administration of” the Internal Revenue Code. 26
U.S.C. § 7212(a). “To act or endeavor ‘corruptly,’ within the meaning of this section, means to
act or endeavor ‘with the intent to secure an unlawful advantage or benefit either for one’s self or
for another.’” United States v. Parse, 789 F.3d 83, 121 (2d Cir. 2015) (quoting United States v.
Kelly, 147 F.3d 172, 177 (2d. Cir. 1998)).

- 11 -

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 12 of 14

Count One, paragraph nine of the Second Superseding Indictment alleges that
Little took six separate actions, in addition to failing to file FBARs and tax returns, that violated
Section 7212(a) in connection with the alleged scheme to avoid the taxes due on the Seggerman
heirs’ inheritance, and the government represents it intends to rely on those actions rather than on
the failure to file tax returns or FBARs. (Gov.’s Opp. at 14-15.) A person of ordinary
intelligence would understand that conduct of the type alleged in paragraph nine would expose
an individual to criminal penalties for obstruction under the meaning of section 7212(a). Thus,
there is no void for vagueness issue with respect to Little’s prosecution for obstruction of the
internal revenue laws.
26 U.S.C. § 7203 makes it unlawful for “[a]ny person required under [Title 26] to
pay any estimated tax or tax, or required by this title or by regulations made under authority
thereof to make a return, keep any records, or supply any information, [to] willfully fail[] to pay
such estimated tax or tax, make such return, keep such records, or supply such information . . . .”
In Section 7203 and other statues prohibiting tax evasion, “the word ‘willfully’ . . . generally
connotes a voluntary, intentional violation of a known legal duty.” United States v. Bishop, 412
U.S. 346, 360 (1973). The Supreme Court has “formulated the requirement of willfulness as bad
faith or evil intent, or evil motive and want of justification in view of all the financial
circumstances of the taxpayer, or knowledge that the taxpayer should have reported more income
than he did.” Id. (internal citations and quotation marks omitted).
31 U.S.C. 5322(a) makes it unlawful to “willfully violat[e]” 31 U.S.C. §§ 5311 et
seq., “or a regulation prescribed or order issued” thereunder, including 31 C.F.R. § 1010.350,
which requires certain individuals to file FBARs. Thus, to be convicted under Section 5322(a)
for violating the requirement to file an FBAR, a defendant must know of his duty to file but

- 12 -

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 13 of 14

intentionally fail to do so anyway. See United States v. Sturman, 951 F.2d 1466, 1476 (6th Cir.
1991) (defining “willfulness” in prosecution for failure to file records and reports of foreign
financial agency transactions as the “voluntary, intentional violation of a known legal duty”);
United States v. Eisenstein, 731 F.2d 1540, 1543 (11th Cir. 1984) (“[A]s it is used in the
currency reporting statute, the term willful require[s] proof of the defendant’s knowledge of the
reporting requirement and his specific intent to commit the crime.”) (internal quotation marks
omitted) (alterations and emphasis in original); United States v. Granda, 565 F.2d 922, 925-26
(5th Cir. 1978) (“[T]he terms knowing and willful require proof of the defendant’s knowledge of
the reporting requirement and his specific intent to commit the crime. Congress, by adding these
terms, took this regulatory statute out of the ranks of strict liability type crimes.”); United States
v. San Juan, 545 F.2d 314, 318 (2d Cir. 1976) (“Without proof of any knowledge of, or notice to,
Mrs. San Juan of the reporting requirements, a jury could not determine beyond a reasonable
doubt that she had the requisite willful intent.”).
Thus, conviction pursuant to each of these statutes requires the government to
prove beyond a reasonable doubt that Little acted willfully with respect to the failure to file tax
returns and FBARs, and corruptly with respect to the obstruction of the internal revenue laws.
As described above, the presence of this scienter requirement undercuts any due process void for
vagueness challenge. Because a conviction may only be obtained only if the government proves,
beyond a reasonable doubt, that the defendant knew he was legally required to file tax returns or
file an FBAR, and so knowing, intentionally did not do so with the knowledge that he was
violating the law, he cannot complain that he could be convicted for actions that he did not
realize were unlawful. See, e.g., 3 L. Sand, et al., Modern Federal Jury Instructions, Criminal
Inst. 50B-11 at 50B-16 (2013) (“A willful violation of this reporting requirement can only occur

- 13 -

Case 1:12-cr-00647-PKC Document 252 Filed 05/03/17 Page 14 of 14

if the government proves beyond a reasonable doubt that the defendant knew of the reporting
requirement and that the defendant acted with the specific intent to violate that requirement.”)
CONCLUSION
Neither the legal obligation for alien lawful permanent residents of the U.S. to file
tax returns or FBARs, nor the statutes criminalizing such failure, nor the statute prohibiting the
obstruction of the internal revenue laws, are vague as applied to Little’s alleged conduct. A
person of ordinary intelligence would know if his or her actions conformed to law. Defendant’s
motion to dismiss Counts One through Eight of the Second Superseding Indictment is DENIED.
The Clerk of the Court is directed to terminate the motion (Dkt. No. 239.)
SO ORDERED.

Dated: New York, New York
May 3, 2017

- 14 -

APPENDIX C:
MEMORANDUM AND ORDER OF THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK DENYING DEFENDANT’S
MOTION TO RECONSIDER, DATED JUNE 23, 2017
(United States v. Little, 12-cr-0647 (PKC)(S.D.N.Y. June 23, 2017))

APPENDIX D:
OPINION AND ORDER OF THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK DENYING DEFENDANT’S
POSTTRIAL MOTIONS, DATED NOVEMBER 1, 2018
(United States v. Little, 2018 WL 5668874 (S.D.N.Y. 2018))

APPENDIX E:
OPINION AND ORDER OF THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK DENYING DEFENDANT’S
MOTION TO RECONSIDER, DATED NOVEMBER 14, 2018
(United States v. Little, 2018 WL 5961291, (S.D.N.Y. 2018))

APPENDIX F:
ORDER OF THE COURT OF APPEALS, DATED NOVEMBER 19, 2020,
DENYING THE PETITION FOR REHEARING OR REHEARING EN BANC
(United States v. Little, 18-3622; 19-445 (2d Cir. November 19, 2020))

Case 18-3622, Document 176, 11/19/2020, 2978292, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
19th day of November, two thousand twenty.
________________________________________
United States of America,
Appellee,
v.
Michael J. Little, AKA Sealed Defendant 1,

ORDER
Docket Nos: 18-3622, 19-445

Defendant - Appellant.
_______________________________________
Appellant, Michael J. Little, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

